Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




 A COMPARISON OF PRICES FOR
 POWER WHEELCHAIRS IN THE
     MEDICARE PROGRAM




                    Inspector General

                      April 2004
                    OEI-03-03-00460
                Office of Inspector General

                                  http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95- 452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services
The OIG's Office of Audit Services (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit r esources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors in
carrying out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations in order to reduce waste, abuse, and
mismanagement and to promote economy and efficiency throughout the department.

Office of Evaluation and Inspections
The OIG's Office of Evaluation and Inspections (OEI) conducts short- term management and
program evaluations (called inspections) that focus on issues of concern to the department,
the Congress, and the public. The findings and recommendations contained in the
inspections reports generate rapid, accurate, and up- to- date information on the effic iency,
vulnerability, and effectiveness of departmental programs.

Office of Investigations
The OIG's Office of Investigations (OI) conducts criminal, civil, and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries and of
unjust enrichment by providers. The investigative efforts of OI lead to criminal convictions,
administrative sanctions, or civil monetary penalties. The OI also oversees state Medicaid
fraud control units, which investigate and prosecute fraud and patient abuse in the Medicaid
program.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal
support in OIG's internal operations. The OCIG imposes program exclusions and civil
monetary penalties on health care providers and litigates those actions within the
department. The OCIG also represents OIG in the global settlement of cases arisin g under
the Civil False Claims Act, develops and monitors corporate integrity agreements, develops
model compliance plans, renders advisory opinions on OIG sanctions to the health care
community, and issues fraud alerts and other industry guidance.
E X E C U T I V E                                 S U M M A R Y 




                              OBJECTIVE
                              To compare the Medicare reimbursement amount for K0011 power
                              wheelchairs to purchase prices available to consumers and
                              suppliers.


                              BACKGROUND
                              Medicare beneficiaries are eligible to receive power wheelchairs
                              under Medicare Part B coverage of durable medical equipment.
                              Physicians order K0011 power wheelchairs for Medicare
                              beneficiaries who qualify for them. Medicare beneficiaries receive
                              their K0011 power wheelchairs from suppliers that bill the
                              Medicare program for reimbursement. Suppliers purchase power
                              wheelchairs from wholesalers and directly from power wheelchair
                              manufacturers.

                              The K0011 power wheelchair is described as a standard-weight
                              frame motorized/power wheelchair with programmable control
                              parameters for speed adjustment, tremor dampening, acceleration
                              control, and braking. A wide variety of models of power
                              wheelchairs are reimbursed under the K0011 procedure code.
                              However, the Medicare program does not collect information on the
                              model of power wheelchair actually provided to each beneficiary.

                              In 2002, Medicare and its beneficiaries paid $856 million for all
                              power wheelchairs. Payments for the K0011 power wheelchair
                              accounted for 97 percent of this total, or $829 million. In 2003, the
                              median reimbursement for a purchased K0011 power wheelchair
                              was $5,297.

                              We collected prices for 96 models of K0011 power wheelchairs. We
                              identified these wheelchairs from the Statistical Analysis Durable
                              Medical Equipment Regional Carrier’s product classification list.
                              We also identified the power wheelchair models that were provided
                              to Medicare beneficiaries. We then obtained prices of K0011 power
                              wheelchairs from three sources: the Web sites of power wheelchair
                              suppliers, two national wholesalers, and suppliers who negotiated
                              directly with manufacturers and distributors of K0011 power
                              wheelchairs.




O E I - 03 - 03 - 0 0 4 6 0   A COMPARISON   OF   P RICES   FOR   WHEELCHAIRS                         i
E   X   E      C      U       T       I   V   E    S   U     M      M       A     R   Y



                                              FINDING
                                              Medicare and its beneficiaries pay considerably more than
                                              consumers or suppliers for K0011 power wheelchairs. The
                                              median purchase prices for both consumers and suppliers were
                                              lower than the CY 2003 Medicare reimbursement amount for
                                              K0011 power wheelchairs. Compared to the Medicare
                                              reimbursement amount of $5,297, consumers were able to purchase
                                              K0011 power wheelchairs for a median price of $3,863, suppliers
                                              were able to purchase K0011 power wheelchairs from two
                                              wholesalers for a median price of $2,363, and suppliers who
                                              negotiated directly with distributors and manufacturers were able
                                              to obtain K0011 power wheelchairs for a median price of $1,550.

                                              For the models of K0011 power wheelchairs actually supplied to
                                              Medicare beneficiaries, we found that the median prices to
                                              consumers and suppliers were below the Medicare reimbursement
                                              amount of $5,297. The median prices for these power wheelchairs
                                              were very close to the median prices obtained for all the power
                                              wheelchairs, with the median prices ranging from $1,699 to $3,888.

                                              If the Medicare reimbursement amount was set at the prices
                                              available to consumers and suppliers, Medicare and its
                                              beneficiaries could have saved over $224 million. If the Medicare
                                              program based its reimbursement amount on the median price
                                              offered by wholesalers or the median price negotiated by suppliers
                                              with manufacturers and distributors, the program could have saved
                                              more than $459 million in 2002. The actual savings to the program
                                              could be less than these amounts, since any potential supplier
                                              administrative costs related to furnishing K0011 power wheelchairs
                                              to Medicare beneficiaries were not included in the prices reviewed.


                                              RECOMMENDATION
                                              We found that both consumers and suppliers could purchase K0011
                                              power wheelchairs at prices lower than the Medicare
                                              reimbursement amount. Consequently, the program and its
                                              beneficiaries could have realized substantial savings if the
                                              Medicare reimbursement amount for K0011 power wheelchairs
                                              more closely resembled the costs to consumers and suppliers.




        O E I - 03 - 03 - 0 0 4 6 0           A COMPARISON   OF   P RICES   FOR   WHEELCHAIRS                       ii
E   X   E      C      U       T       I   V   E    S   U     M      M       A     R   Y




                                              We recommend that the Centers for Medicare & Medicaid Services:

                                              (1)	 Create a new coding system for K0011 power wheelchairs that
                                                  accounts for the variety in models and prices for power
                                                  wheelchairs.

                                              (2)	 Use the pricing information obtained as part of this review to
                                                  determine whether an inherent reasonableness review for
                                                  K0011 power wheelchairs is appropriate.

                                              Agency Comments
                                              CMS believes our recommendation regarding coding warrants
                                              further consideration. CMS is currently reviewing whether the
                                              need for an overall change in the coding structure for power
                                              wheelchairs is necessary. CMS noted that our report does not fully
                                              explain why additional codes are necessary, other than the fact that
                                              there is a wide variation in prices for the different models of K0011
                                              power wheelchairs.

                                              CMS agreed with our recommendation that it consider using its
                                              inherent reasonableness authority to reduce the reimbursement
                                              amount for K0011 power wheelchairs.

                                              The full text of CMS’s comments is presented in Appendix C.

                                              OIG Response
                                              In our study, we found that consumers were able to purchase
                                              K0011 power wheelchairs from supplier Web sites for a wide range
                                              of prices. The lowest priced wheelchair available to consumers was
                                              $1,600, while the highest priced wheelchair was $16,995. The
                                              median price to consumers for models of K0011 power wheelchairs
                                              actually provided to Medicare beneficiaries was $3,888, with prices
                                              ranging from a low of $2,000 to a high of $5,995. In 2003, the
                                              median reimbursement for a purchased K0011 power wheelchair
                                              was $5,297. We believe that the wide range of K0011 power
                                              wheelchairs available and the finding that beneficiaries tend to
                                              receive lower priced power wheelchairs supports the need for a new
                                              coding system. The goal of this coding system would be to create a
                                              number of reimbursement levels for the wide range of power
                                              wheelchairs now included under the K0011 procedure code.




        O E I - 03 - 03 - 0 0 4 6 0           A COMPARISON   OF   P RICES   FOR   WHEELCHAIRS                       iii
T A B L E                             O F             C O N T E N T S 




                     E X E C U T I V E S U M M A R Y . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i





                     I N T R O D U C T I O N . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1





                     F I N D I N G S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8


                                 Medicare pays more............................................................................. 8



                     R E C O M M E N D A T I O N S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12





                     A P P E N D I C E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14


                                 A. Comparison of Prices for Individual Models ...................................14


                                 B. Calculation of Potential Savings ....................................................15


                                 C. Centers for Medicare & Medicaid Services’s Comments .................16




                     A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18





O E I - 03 - 03 - 0 0 4 6 0           A COMPARISON     OF   P RICES   FOR   WHEELCHAIRS                                                          iv

I N T R O D U C T I O N 




                              OBJECTIVE
                              To compare the Medicare reimbursement amount for K0011 power
                              wheelchairs to purchase prices available to consumers and
                              suppliers.


                              BACKGROUND
                              Medicare Coverage of K0011 Power Wheelchairs
                              Medicare beneficiaries are eligible to receive power wheelchairs
                              under Medicare Part B coverage of durable medical equipment. A
                              beneficiary who requires a power wheelchair usually is totally non -
                              ambulatory and has severe weakness of the upper extremities due
                              to a neurological or muscular disease. A K0011 power wheelchair is
                              covered when all of the following criteria are met:

                                 1.	 the beneficiary’s condition is such that without the use of a
                                     wheelchair the beneficiary would otherwise be bed or chair
                                     confined;

                                 2.	 the beneficiary’s condition is such that a wheelchair is
                                     medically necessary and the beneficiary is unable to operate
                                     a manual wheelchair; and

                                 3.	 the beneficiary is capable of safely operating the controls of a
                                     power wheelchair.

                              Power wheelchairs are identified by the Healthcare Common
                              Procedure Coding System codes (procedure codes) K0010, K0011,
                              K0012, and K0014 for reimbursement purposes. The K0011 power
                              wheelchair is described as a standard-weight frame
                              motorized/power wheelchair with programmable control
                              parameters for speed adjustment, tremor dampening, acceleration
                              control, and braking. A wide variety of models of power
                              wheelchairs are reimbursed under the K0011 procedure code. The
                              Medicare program does not collect information on the
                              manufacturer, model name, or serial number of individual power
                              wheelchairs reimbursed under the K0011 procedure code.
                              Therefore, the program is unable to determine what model of
                              K0011 power wheelchair is provided to Medicare beneficiaries.




O E I - 03 - 03 - 0 0 4 6 0   A COMPARISON   OF   P RICES   FOR   WHEELCHAIRS                           1
I   N   T    R       O      D         U   C   T   I   O   N


                                              Medicare Reimbursement of K0011 Power Wheelchairs
                                              Medicare Part B classifies certain items of durable medical
                                              equipment, such as power wheelchairs, as capped rental items.
                                              Medicare pays for the rental of these items for a period of
                                              continuous use not to exceed 15 months. Beneficiaries also have
                                              the option of purchasing a power wheelchair within the first month
                                              of use. In 2001, 99 percent of all expenditures for K0011 were for
                                              first-month purchases.

                                              In 2002, Medicare and its beneficiaries paid $856 million for all
                                              power wheelchairs. Payments for the K0011 power wheelchair
                                              accounted for 97 percent of this total, or $829 million. According to
                                              the Centers for Medicare & Medicaid Services (CMS), the K0011
                                              code ranked fourth among the top 200 procedure codes ranked by
                                              Medicare payments in calendar year (CY) 2002. Spending for
                                              motorized wheelchairs has increased at least 33 percent each year
                                              since 1999. In contrast, total Medicare benefit payments rose only
                                              11 percent during that same period. Also, the number of Medicare
                                              beneficiaries with at least one claim for a motorized wheelchair rose
                                              from just over 55,000 in 1999 to almost 159,000 in 2002, an
                                              increase of 189 percent. During the same time period, the overall
                                              Medicare population rose only 1 percent per year.

                                              Part B claims for power wheelchairs are processed and paid by four
                                              durable medical equipment regional carriers. Medicare’s payment
                                              for K0011 power wheelchairs is 80 percent of the lower of either the
                                              actual charge for the item or the Medicare fee schedule amount
                                              calculated for the item. The beneficiary is responsible for the
                                              remaining 20 percent as part of his/her Medicare copayment.

                                              Medicare Fee Schedule Amount for K0011 Power Wheelchairs
                                              Federal statute requires fee schedule amounts for K0011 power
                                              wheelchairs and other capped rental items to be calculated for each
                                              State using average Medicare payments from 1986 as a base year.
                                              These base year payment amounts are adjusted annually by the
                                              change in the Consumer Price Index for all urban consumers (CPI-
                                              U). Since procedure code K0011 was added to the list of procedure
                                              codes in 1994, payment data from 1986 was not available for K0011
                                              power wheelchairs. As a result, the base fee schedule amounts for
                                              the K0011 power wheelchair code were determined using retail
                                              prices. Retail prices in effect for periods subsequent to the 1986 fee
                                              schedule base period were deflated to 1986 by the percentage
                                              change in the CPI-U.

        O E I - 03 - 03 - 0 0 4 6 0           A COMPARISON    OF   P RICES   FOR   WHEELCHAIRS                        2
I   N   T    R       O      D         U   C   T   I   O   N


                                              The fee schedule amounts for the K0011 power wheelchair are
                                              limited by national ceilings and floors. The fee schedule ceiling is
                                              equal to the median of the statewide fee schedule amounts and the
                                              fee schedule floor is equal to 85 percent of that median. In 2003,
                                              the ceiling amount for a purchased K0011 power wheelchair was
                                              $5,297, and the floor amount was $4,502.

                                              Medicare Prescription Drug, Improvement, and Modernization Act of
                                              2003
                                              On November 22, 2003, Congress passed the Medicare Prescription
                                              Drug, Improvement, and Modernization Act of 2003. Section
                                              302(c)(2) of the Act states that payments for certain items and
                                              supplies furnished in 2005
                                                          shall be reduced by the percentage difference
                                                          between the amount of payment otherwise
                                                          determined for the specified item or supply under
                                                          this subsection for 2002, and the amount of
                                                          payment for the specified item or supply under
                                                          chapter 89 of title 5, United States Code . . .

                                              The payment amount under Chapter 89 of Title 5, United States
                                              Code, is identified as the median Federal Employee Health Plan
                                              price, which was obtained from the Inspector General’s June 12,
                                              2002 testimony before the Senate Committee on Appropriations.
                                              The Inspector General reported that the median Federal Employee
                                              Health Plan price for K0011 power wheelchairs was $5,097.

                                              Supplying K0011 Power Wheelchairs to Medicare Beneficiaries
                                              Physicians order K0011 power wheelchairs for Medicare
                                              beneficiaries who qualify for them. Medicare beneficiaries receive
                                              their K0011 power wheelchairs from suppliers that bill the
                                              Medicare program for reimbursement. If the beneficiary chooses to
                                              purchase the power wheelchair at that time, the supplier receives a
                                              lump-sum payment.

                                              Suppliers purchase power wheelchairs from wholesalers and
                                              directly from power wheelchair manufacturers. Wholesalers
                                              purchase large quantities of medical equipment and supplies at
                                              discounted rates from manufacturers and sell these products to
                                              suppliers. Wholesalers and manufacturers may offer rebates or
                                              other discounts to suppliers.




        O E I - 03 - 03 - 0 0 4 6 0           A COMPARISON    OF   P RICES   FOR   WHEELCHAIRS                       3
I   N   T    R       O      D         U   C   T   I   O   N


                                              CMS Creates Power Wheelchair Workgroup
                                              In April 2003, CMS created a workgroup to examine the rapid
                                              growth in power wheelchair payments, identify its causes, and
                                              propose solutions.

                                              The workgroup found that Medicare had little comparative data to
                                              use in determining the appropriateness of the fee schedule amounts
                                              for power wheelchairs. However, the workgroup did conclude that
                                              large suppliers could obtain pricing discounts from power
                                              wheelchair manufacturers. As a result, CMS is investigating long-
                                              term options that may address problems with the fee schedule.
                                              One of these options includes analyzing K0011 power wheelchairs
                                              for a potential inherent reasonableness payment adjustment. CMS
                                              may use its inherent reasonableness authority to deviate from
                                              standard payment methodologies, if their application results in a
                                              payment amount that is determined to be grossly excessive or
                                              deficient.

                                              CMS and OIG Efforts to Stop K0011 Fraud and Abuse
                                              On September 9, 2003, CMS and the Office of Inspector General
                                              (OIG) issued a joint press release detailing new efforts to stop abuse
                                              of the power wheelchair benefit. As part of this joint press release,
                                              CMS announced a “10-point initiative to substantially curb abuse of
                                              the Medicare program by unscrupulous providers of power
                                              wheelchairs and other power mobility products who prey on
                                              Medicare beneficiaries.”

                                              The 10-point initiative includes developing inherent reasonableness
                                              review guidelines so Medicare can be assured that it is paying
                                              appropriately for power wheelchairs. Power wheelchairs will be
                                              the first item analyzed for potential inherent reasonableness
                                              payment adjustments.

                                              At the same time, OIG will be investigating the proliferation of
                                              durable medical equipment fraud cases involving inflated billings to
                                              Medicare, charges for equipment and supplies not delivered, and
                                              the falsification of documents to qualify beneficiaries for
                                              wheelchairs and other equipment that they often did not need.




        O E I - 03 - 03 - 0 0 4 6 0           A COMPARISON    OF   P RICES   FOR   WHEELCHAIRS                        4
I   N   T    R       O      D         U   C   T   I   O   N



                                              METHODOLOGY
                                              Models of K0011 Power Wheelchairs
                                              Since there are a wide variety of power wheelchairs on the market,
                                              we used the Statistical Analysis Durable Medical Equipment
                                              Regional Carrier’s (statistical analysis carrier) product
                                              classification list for wheelchairs to determine which models of
                                              power wheelchairs are coded as K0011. Some K0011 power
                                              wheelchair models have additional features (such as semi-reclining
                                              back mechanisms, anti-tipping devices, safety belts) that have
                                              separate procedure codes. In order to obtain prices for base units
                                              only, we compiled a list of power wheelchair models that were coded
                                              solely as K0011. This list consisted of 96 models of K0011 power
                                              wheelchairs.

                                              We also wanted to specifically review pricing for models of K0011
                                              power wheelchairs that were actually provided to Medicare
                                              beneficiaries. Since Medicare claims do not identify the model of
                                              K0011 power wheelchair supplied, we used information from
                                              related OIG work to determine what models of K0011 power
                                              wheelchairs were actually supplied to Medicare beneficiaries. As
                                              part of this work, we selected a random sample of 300 K0011 power
                                              wheelchair claims paid in 2001. We contacted the suppliers who
                                              submitted the sample claims and requested that they provide the
                                              manufacturer, model, and serial number of the K0011 power
                                              wheelchair provided to the beneficiary. We identified 33 models of
                                              K0011 power wheelchairs that were provided to Medicare
                                              beneficiaries in our sample and were also included on the statistical
                                              analysis carrier’s product classification list.

                                              Sources of Prices for K0011 Power Wheelchairs
                                              Supplier Web Site Prices
                                              In order to determine the prices charged to consumers for K0011
                                              power wheelchairs, we collected prices of K0011 power wheelchairs
                                              from the Web sites of power wheelchair suppliers in June 2003 and
                                              July 2003. We performed an Internet search for power wheelchair
                                              suppliers who provide power wheelchairs directly to consumers.
                                              Consumers are able to purchase power wheelchairs either by
                                              placing an order on the Internet or by phone. We obtained prices
                                              from 41 suppliers located in the United States. These suppliers
                                              may or may not participate in the Medicare program. Some of the
                                              suppliers had storefront operations as well. We collected 379


        O E I - 03 - 03 - 0 0 4 6 0           A COMPARISON    OF   P RICES   FOR   WHEELCHAIRS                     5
I   N   T    R       O      D         U   C   T   I   O   N


                                              individual prices for K0011 power wheelchair models from the 41
                                              suppliers. We obtained prices for 54 models of K0011 power
                                              wheelchairs that were identified on the statistical analysis carrier’s
                                              product classification list.

                                              Medicare allows suppliers to bill for batteries separately from the
                                              power wheelchair itself. Some suppliers included batteries in the
                                              price of the K0011 power wheelchair. In cases where we were able
                                              to identify the battery price, we subtracted the battery price from
                                              the power wheelchair price. This was done so that we could
                                              determine a price for the base unit.

                                              National Wholesaler Prices
                                              We also obtained the prices of K0011 power wheelchairs to
                                              suppliers from two national wholesalers. The wholesalers are two
                                              of the largest distributors of medical and surgical products in the
                                              United States. From one of the wholesalers, we obtained prices
                                              quoted to the wholesaler from three power wheelchair
                                              manufacturers. The prices from the manufacturers were quoted in
                                              October 2001, October 2002, and September 2003. We obtained the
                                              August 2002 home health care products catalog from the other
                                              wholesaler, which included prices for power wheelchairs from one
                                              manufacturer. We collected 22 individual prices from the two
                                              wholesalers for 18 models of K0011 power wheelchairs.

                                              Manufacturer and Distributor Prices
                                              We obtained documentation on suppliers’ prices negotiated directly
                                              with manufacturers and distributors of K0011 power wheelchairs.
                                              We collected documentation from eight suppliers. A review of the
                                              documentation, which included invoices and purchase orders from
                                              1999 to 2003, yielded 36 individual prices for 12 models of K0011
                                              power wheelchairs.

                                              Comparison of Medicare Reimbursement Amount to Median Prices
                                              We determined the percentages that the Medicare reimbursement
                                              amount exceeded the median prices of the three sources reviewed.
                                              In order to accomplish this, we first calculated the median price
                                              from the prices collected from each of the three sources reviewed.
                                              We then determined the percentage difference in prices for each
                                              source by subtracting the median prices of K0011 power
                                              wheelchairs from the Medicare reimbursement amount and then
                                              dividing this number by the median price. We used Medicare’s CY




        O E I - 03 - 03 - 0 0 4 6 0           A COMPARISON    OF   P RICES   FOR   WHEELCHAIRS                      6
I   N   T    R       O      D         U   C   T   I   O   N


                                              2003 fee schedule’s median of $5,297 as the Medicare
                                              reimbursement amount.

                                              Calculating Potential Medicare Savings
                                              We calculated how much Medicare and its beneficiaries would save
                                              if the reimbursement amount for K0011 power wheelchairs was set
                                              at the median price of the sources reviewed. We first determined
                                              the percentage difference in prices for each source by subtracting
                                              the median prices of K0011 power wheelchairs from the CY 2003
                                              Medicare reimbursement amount ($5,297) and then dividing this
                                              number by the Medicare reimbursement amount. We then
                                              multiplied these percentage differences by the total Medicare
                                              payments for K0011 power wheelchairs in 2002 ($828,887,761) in
                                              order to determine potential program savings. Medicare payments
                                              were obtained from CMS’s Part B Extract and Summary System.
                                              The data used to calculate potential Medicare and beneficiary
                                              savings are presented in Appendix B.

                                              Limitations of Pricing Data
                                              In regard to the prices available to suppliers, we did not collect data
                                              to determine if suppliers had any administrative costs related to
                                              furnishing K0011 power wheelchairs to Medicare beneficiaries.
                                              Therefore, the median prices available to suppliers do not include
                                              any potential associated supplier costs. The estimates of potential
                                              program savings presented in the findings of this report would be
                                              lower if median prices had included any supplier administrative
                                              costs.

                                              We would assume that the prices collected from Web sites of
                                              suppliers include profit margins and any costs related to billing
                                              other insurers. We do not know if the costs associated with billing
                                              the Medicare program would be significantly different from the
                                              costs of billing other insurers.




        O E I - 03 - 03 - 0 0 4 6 0           A COMPARISON    OF   P RICES   FOR   WHEELCHAIRS                      7
               F I N D I N G S



    Medicare and its beneficiaries pay considerably                                              The median purchase prices for
      more than consumers or suppliers for K0011                                                 both consumers and suppliers were
                                                                                                 lower than the Medicare
                             power wheelchairs.
                                                                                                 reimbursement amount for K0011
                                               power wheelchairs. Our comparison of prices for the K0011 power
                                               wheelchair to Medicare’s reimbursement amount and our estimates
                                               of potential savings are presented in Table 1 below. The Medicare
                                               reimbursement amount for K0011 power wheelchairs exceeded the
                                               median prices from the three sources by 37, 124, and 242 percent.
                                               Of the three sources reviewed, the median price negotiated by
                                               suppliers with manufacturers and distributors was the lowest.
                                               Prices obtained for K0011 power wheelchair models varied widely,
                                               from a low of $999 to a high of $16,995. Ninety-four percent of the
                                               prices reviewed were below the Medicare reimbursement amount.


Table 1: Comparison of Consumer and Supplier Prices to Medicare Reimbursement Amount

                                                                                                      Percentage by
                                                                                                     which Medicare
                                                                                                     Reimbursement     Potential Medicare
                                                                                                    Amount Exceeds       and Beneficiary
Source:                                      Median Price                    Range of Prices           Median Price               Savings

Medicare1                                            $5,297                  $4,502 to $5,297                   NA                      NA

Supplier Web Sites                                   $3,863              $1,600 to $16,995                    37%           $224,395,894

Wholesalers                                          $2,363                  $1,713 to $3,141                124%           $459,119,632

Supplier Prices Negotiated with
                                                     $1,550                   $999 to $2,161                 242%           $586,339,898
Manufacturers and Distributors

1
This is Medicare’s reimbursement amount for CY 2003. The Medicare Prescription Drug, Improvement, and Modernization Act of 2003 lowered the
reimbursement amount to approximately $5,100 for K0011 power wheelchairs furnished in 2005.

Source: Office of Evaluation and Inspections, 2003

Note: All figures in the table have been rounded




               O E I - 03 - 03 - 0 0 4 6 0     A COMPARISON   OF   P RICES   FOR   WHEELCHAIRS                                           8
F   I   N    D       I    N       G   S


                                          The median price to consumers for a K0011 power wheelchair was
                                          $3,863.
                                          According to supplier Web sites, consumers are able to purchase
                                          K0011 power wheelchairs for a median price of $3,863. Only 28 of
                                          the 379 prices offered by suppliers to consumers exceeded the
                                          Medicare reimbursement amount for K0011.

                                          The prices available to consumers ranged from a low of $1,600 to a
                                          high of $16,995. The most expensive K0011 power wheelchair
                                          available for purchase was the Levo Mobil LCM Comfort,
                                          manufactured by Levo USA, Inc. This wheelchair was $4,000 more
                                          than the second most expensive wheelchair. The wheelchair is able
                                          to transfer the patient to a standing position. Those who are
                                          unable to stand on their own, such as people with spina bifida or
                                          cerebral palsy, and need a maneuverable indoor power wheelchair
                                          utilize this power wheelchair.

                                          The majority of the suppliers offered free shipping to consumers
                                          who purchased power wheelchairs from their Web sites. Some
                                          suppliers also offered free maintenance of the power wheelchair for
                                          1 year after the date of purchase.

                                          Since the Medicare program does not collect information on the
                                          manufacturer or model of the K0011 power wheelchair being
                                          provided to beneficiaries, it is unable to determine whether most
                                          beneficiaries are using lower-priced or higher-priced models.
                                          However, we found that the median price to consumers for models
                                          of K0011 power wheelchairs that were actually provided to
                                          Medicare beneficiaries in 2001 was $3,888. The prices for this
                                          subset of K0011 power wheelchairs ranged from a low of $2,000 to a
                                          high of $5,995. Out of the 247 prices we collected, there were only 4
                                          instances where the cost to the consumer was greater than the
                                          Medicare reimbursement amount.

                                          Wholesalers offered K0011 power wheelchairs to suppliers for a
                                          median price of $2,363.
                                          The prices offered by the two wholesalers ranged from a low of
                                          $1,713 to a high of $3,141, with a median of $2,363. Data collected
                                          from related OIG work was used to determine the models of K0011
                                          power wheelchairs actually being supplied to Medicare beneficiaries
                                          in 2001. We found that the median price offered to suppliers for
                                          these models of K0011 power wheelchairs was $2,494 with prices
                                          ranging from $1,785 to $3,141.


        O E I - 03 - 03 - 0 0 4 6 0       A COMPARISON   OF   P RICES   FOR   WHEELCHAIRS                       9
F   I   N    D       I    N       G   S


                                          Suppliers were able to obtain K0011 power wheelchairs from
                                          manufacturers and distributors for a median price of $1,550.
                                          We reviewed invoices and purchase orders received from suppliers
                                          who negotiated prices of K0011 power wheelchairs with
                                          manufacturers and distributors. Based on our review of 36
                                          individual prices from 8 suppliers, we determined that suppliers
                                          were able to purchase K0011 power wheelchairs for a median price
                                          of $1,550. The prices ranged from a low of $999 to a high of $2,161.
                                          We also analyzed prices for models of K0011 wheelchairs that were
                                          supplied to Medicare beneficiaries in 2001. The median price
                                          negotiated by suppliers for the subset models of K0011 power
                                          wheelchairs provided to Medicare beneficiaries was $1,699, with
                                          prices ranging from $1,150 to $2,161.

                                          As part of our analysis, we grouped the prices into two categories.
                                          One group included prices negotiated with manufacturers, the
                                          other group included prices negotiated with distributors. The
                                          median price offered by manufacturers for K0011 power
                                          wheelchairs was $1,392, while the median price offered by
                                          distributors was $1,699.

                                          The median price negotiated by suppliers with manufacturers and
                                          distributors was the lowest among the three sources reviewed.
                                          Similarly, when we analyzed prices for individual models of K0011
                                          power wheelchairs across all three sources, the prices negotiated by
                                          suppliers with manufacturers and distributors were the lowest.
                                          Appendix A shows prices obtained from all three sources for three
                                          models of K0011 power wheelchairs provided to Medicare
                                          beneficiaries. These three models alone accounted for 13 percent of
                                          K0011 power wheelchairs provided to Medicare beneficiaries in our
                                          sample.

                                          If the Medicare reimbursement amount was set at the prices available
                                          to consumers and suppliers, Medicare and its beneficiaries could have
                                          saved over $224 million.
                                          If the Medicare reimbursement amount for K0011 power
                                          wheelchairs were set at the median price available to consumers,
                                          the Medicare program and its beneficiaries would have saved
                                          $224 million in 2002. Medicare beneficiaries alone would have
                                          saved $45 million in copayments. An individual Medicare
                                          beneficiary could have saved $287, if the Medicare reimbursement
                                          amount for K0011 power wheelchairs were set at the median price
                                          available to consumers.

        O E I - 03 - 03 - 0 0 4 6 0       A COMPARISON   OF   P RICES   FOR   WHEELCHAIRS                       10
F   I   N    D       I    N       G   S


                                          Of the three sources reviewed, the median price negotiated by
                                          suppliers with manufacturers and distributors was the lowest. If
                                          the Medicare pr ogram based its K0011 reimbursement amount on
                                          this price, the program and its beneficiaries could have saved $586
                                          million in 2002. The actual savings to the program could be less
                                          than these amounts, since any potential supplier administrative
                                          costs related to furnishing K0011 power wheelchairs to Medicare
                                          beneficiaries were not included in the prices reviewed. Our
                                          calculations of potential savings estimates are presented in
                                          Appendix B.




        O E I - 03 - 03 - 0 0 4 6 0       A COMPARISON   OF   P RICES   FOR   WHEELCHAIRS                    11
R E C O M M E N D A T I O N S


                              We found that both consumers and suppliers could purchase K0011
                              power wheelchairs at prices lower than the Medicare
                              reimbursement amount. Consequently, the program and its
                              beneficiaries could have realized substantial savings if the
                              Medicare reimbursement amount for K0011 power wheelchairs
                              more closely resembled the costs to consumers and suppliers.

                              We recommend that CMS:

                              (1) Create a new coding system for K0011 power wheelchairs that
                                  accounts for the variety in models and prices for power
                                  wheelchairs.

                              (2) Use the pricing information obtained as part of this review to
                                  determine whether an inherent reasonableness review for
                                  K0011 power wheelchairs is appropriate.

                              Agency Comments
                              CMS believes our recommendation regarding coding warrants
                              further consideration. CMS is currently reviewing whether the
                              need for an overall change in the coding structure for power
                              wheelchairs is necessary. CMS noted that our report does not fully
                              explain why additional codes are necessary, other than the fact that
                              there is a wide variation in prices for the different models of K0011
                              power wheelchairs.

                              CMS agreed with our recommendation that it consider using their
                              inherent reasonableness authority to reduce the reimbursement
                              amount for K0011 power wheelchairs.

                              The full text of CMS’s comments is presented in Appendix C.

                              OIG Response
                              In our study we found that consumers were able to purchase K0011
                              power wheelchairs from supplier Web sites for a wide range of
                              prices. The lowest priced wheelchair available to consumers was
                              $1,600, while the highest priced wheelchair was $16,995. The
                              median price to consumers for models of K0011 power wheelchairs
                              actually provided to Medicare beneficiaries was $3,888, with prices
                              ranging from a low of $2,000 to a high of $5,995. In 2003, the
                              median reimbursement for a purchased K0011 power wheelchair
                              was $5,297. We believe that the wide range of K0011 power
                              wheelchairs available and the finding that beneficiaries tend to
                              receive lower priced power wheelchairs supports the need for a new
                              coding system. The goal of this coding system would be to create a


O E I - 03 - 03 - 0 0 4 6 0   A COMPARISON   OF   P RICES   FOR   WHEELCHAIRS                      12
                              number of reimbursement levels for the wide range of power
                              wheelchairs now included under the K0011 procedure code.




O E I - 03 - 03 - 0 0 4 6 0   A COMPARISON   OF   P RICES   FOR   WHEELCHAIRS              13
               A P P E N D I X ~ A



Comparison of Consumer and Supplier Prices for Individual Models


The following table shows prices obtained from all three sources for three models of K0011 power
wheelchairs provided to Medicare beneficiaries.



Comparison of Consumer and Supplier Prices for Individual Models

                                             Calendar Year 2003                                                 Supplier Price
                                                Medicare Median                                                Negotiated with
Individual K0011 Power                           Reimbursement              Supplier Web Site   Wholesaler   Manufacturers and
Wheelchair Model                                        Amount                         Price1       Price1        Distributors1

Model A                                                  $5,297                        $3,747      $2,661               $2,000

Model B                                                  $5,297                        $2,974      $2,051               $1,775

Model C                                                  $5,297                        $3,634      $1,785               $1,699

1
Median price is provided when more than one price was collected f rom source.

Source: Office of Evaluation and Inspections, 2003




               O E I - 03 - 03 - 0 0 4 6 0    A COMPARISON   OF   P RICES   FOR   WHEELCHAIRS                              14
               A P P E N D I XX ~ B



Calculation of Potential Savings for K0011 Power Wheelchairs


In order to calculate potential savings, we first calculated percentage differences between the prices to
consumers and suppliers for K0011 power wheelchairs and Medicare’s reimbursement amount. We did
this by subtracting the median price from each source from the Medicare reimbursement amount. We
then divided this number by the Medicare reimbursement amount. We used Medicare’s calendar year
2003 fee schedule’s median of $5,297 as the Medicare reimbursement amount. We then multiplied
total Medicare payments ($828,887,761) for K0011 power wheelchairs in 2002 by the percentage
differences.




Calculation of Potential Savings for K0011 Power Wheelchairs

                                                        Calendar Year                Median Price
                                                        2003 Medicare                Compared to                           Potential
                                                              Median                    Medicare      2002 Payments    Medicare and
                                             Median    Reimbursement               Reimbursement    for K0011 Power     Beneficiary
Source:                                       Price           Amount                     Amount          Wheelchairs        Savings

Supplier Web Sites                           $3,863                $5,297              27% lower      $828,887,761     $224,395,894

Wholesalers                                  $2,363                $5,297              55% lower      $828,887,761     $459,119,632

Supplier Prices Negotiated with
                                             $1,550                $5,297              71% lower      $828,887,761     $586,339,898
Manufacturers and Distributors

Source: Office of Evaluation and Inspections, 2003

Note: All figures in the table have been rounded




               O E I - 03 - 03 - 0 0 4 6 0    A COMPARISON   OF   P RICES   FOR   WHEELCHAIRS                                   15
 0   A P P E N D I X                          ~           C


Centers for Medicare & Medicaid Services’ Comments




        O E I - 03 - 03 - 0 0 4 6 0   A COMPARISON   OF   P RICES   FOR   WHEELCHAIRS   16
A   P   P      E      N       D       I   X   ~   C




        O E I - 03 - 03 - 0 0 4 6 0           A COMPARISON   OF   P RICES   FOR   WHEELCHAIRS   17
A C K N O W L E D G M E N T S


                              This report was prepared under the direction of Robert A. Vito,
                              Regional Inspector General for Evaluation and Inspections in
                              the Philadelphia Regional Office, and Linda M. Ragone, Deputy
                              Regional Inspector General. Other principal Office of Evaluation
                              and Inspections staff who contributed include:

                              Tanaz Dutia, Project Leader

                              Stephanie Lattin London, Program Specialist




O E I - 03 - 03 - 0 0 4 6 0   A COMPARISON   OF   P RICES   FOR   WHEELCHAIRS                    18
